                      CLOSEOUT FOR M92080035

bis case was brought to the attention of OIG b
     T                                       y
                                             -
   (the complainant), who sent us a letter and supporting
                                r letter, the complainant
                                          #1) of the Department m
                                         was guilty of intellectual
                                          intentional infliction of
                                                                 -
emotional distress, misuse of government funds and property,
intentional damage to career prospects, and unfair labor practices.
The complainant alleged that Subject #1 had stolen work or ideas
from anothe




against her when she blew the whistle on Subject #l. In subsequent
communicatior~s (telephone call and letter of July 22, 1993), the




     The complainant was a post-doctoral researcher working under
Subject #lls supervision. She was funded under a grant Subject #1
obtained from another government agency (the original grant) and
based on a proposal which she helped to write. OIG determined that
many of the complainant's allegations against Subject #1 did not
fall within our jurisdiction. In particular, the complainant's
allegations of intellectual theft, misrepresentation in a proposal,
and misuse of grant funds were the only ones that raised issues of
possible misconduct in science in connection with NSF proposals or
awards.     Because the allegations of retaliation against a
whistleblower referred to actions that took place after the
complainant allegedly accused Subject #1 of intellectual theft in
his NSF proposal, OIG determined that these allegations also fell
within OIGts jurisdiction.

                                                             a
     OIG considered two allegations of intellectual theft. The
          the complainant s claim that Subject # I ts proposal
         was in fact the complainant's work. The proposal uses
           complainant had       prior to her work with Subject #I,
which the two then used in their collaborative experiments. The
complainant claimed that "the experiments proposed in this grant
are obvious extensions of the original work, and do not represent
novel ideast1and that she designed and executed similar experiments
under the original grant. The complainant admitted, however, that
Subject #lls proposal took work that they had done together, with
       that she had brought to their collaboration, and developed
                            page 1 of   4
that work in somewhat different, original directions. She agreed
that the ideas that she had developed that appeared in his proposal
were not ideas she had developed independently, but ideas contained
in the work that the two did jointly. Because collaborators are
entitled to the fruits of collaborative work, and because the
complainant was alleging only that the subject chose to use those
fruits in subsequent independent work, we have concluded that the
facts, as the complainant presented them, did not sustain an
allegation of intellectual theft.
     The second allegation of intellectual theft concerned work
done by the other post-doctoral fellow. The complainant alleged
that Subject #1 submitted a proposal to NSF in which this
researcher was not given co-principal investigator status even
though he had performed a large majority of the work and had been
promised such status.      O I G contacted the other post-doctoral
fellow, who reported that he had not in fact been promised such
status. O I G examined the proposal in question and determined that
the other post-doctoral fellow's contribution to writing the
proposal was not explicitly acknowledged. We wrote to the subject,
who noted that the other post-doctoral fellow was clearly indicated
to be a key collaborator in the research and his curriculum vitae
was included in the proposal. O I G concluded that a reasonable
scientist reading the proposal would expect that the other post-
doctoral fellow had helped to prepare it and that the deprivation
of credit involved, if any, was minimal and did not rise to the
level of misconduct in science.
     The complainant also alleged that Subject #1 routinely
"piratedw grant funds and provided O I G with a memorandum from
Subject #1 in which he specifically stated his intention to
"pirateu funds from a prospective NSF award in order to do other
research. Subject #lls memorandum further stated that he routinely
"piratesM funds.    The complainant did not report any specific
instances of actual misappropriation of funds under NSF awards,
however, and the NSF proposal Subject #1 mentioned in the
memorandum was not funded. When contacted about this memorandum,
Subject #1 explained that he uses grant money only to pay for grant
related work, but that he is flexible in exploiting opportunities
for scientific achievement that were not anticipated in his
original proposals.      He further noted that the "piratingM
contemplated in his memorandum involved work that was clearly
within the scope of his pending proposal, which had been written so
as to permit him the option of supporting the complainant's
research without committing him to doing so. O I G has confirmed
that this assertion is correct. Subject #1 added that he used
colorful language in his memorandum in an effort to motivate the
complainant, and that he would not have used such language if he
were explaining his practices to a granting agency. The state
auditor examined the administration of the original grant and did
not find a pattern of improprieties; the auditor questioned less
than two percent in costs on a grant of over $100,000. O I G found
                            page 2 of 4
Subject #llsexplanation of the language in his memorandum credible
and chose not to pursue this matter further.
     OIG asked Subject #I to respond              the complainant's
allegation that he had misrepresented a
that had in fact already failed. Subiec
                                               experiment as ongoing
                                             1 emlained that he did
not know the experiment -had failed until after 6e had submitted the
proposal that represented it as ongoing. As evidence for this
                                                                                     LO
assertion, he cited a memorandum to the complainant, written
shortly after the proposal was submitted, that discusses this
experiment as ongoing.     OIG concluded that the allegation of
misrepresentation in the proposal lacked substance.
     The complainant alleged that after she went to university
officials with complaints about Subject #1 she was threatened with
withdrawal of her teaching assignment by Subject # 2 and damage to
her career by Subject # 3 if she continued to pursue her complaints.
The complainant had no written documentation to support these
allegations. OIG wrote to Subjects # 2 and # 3 , both of whom denied
that they had ever in any way threatened the complainant with
retaliation. They also claimed that at the time of their alleged
actions the complainant had not raised issues of misconduct in
science at all, a view that was supported by the university
administrator to whom the complainant brought her allegations
against Subject #l. Subject # 3 supplied OIG with notes of his
conversations with the complainant and others, made at the time of
the alleged retaliation, that support his version of events. OIG
concluded that there was insufficient evidence of retaliation
against a whistleblower to warrant an investigation and no prospect
that persuasive evidence of retaliation could be produced.
     OIG was unable to find sufficient evidence to support any of
the allegations. This case is closed and no further action will be
taken.




Staff Scientist, Oversight
Concurrence:


                                       -    .
  /   -   '           .
                                      . :       J ; . & c ~   !.;.   >   ,;' ;i ~4
              I
                  ,
                  .
                          '
                              .   ,
Peggy L'. Fischer
Acting Deputy Assistant Inspector General,
Oversight

                                                                           page 3 of 4
James J. Zwolenik
Assistant Inspector General for Oversight




L. Nancy Birnbaum
Assistant Counsel to the Inspector General

cc: Signatories
    Inspector General.




                           page 4 of 4
